No.______

In the

SUPREME COURT OF THE UNITED STATES
ARTHUR PERRAULT, Petitioner
v.
UNITED STATES OF AMERICA, Respondent

On Petition for Writ of Certiorari to
the United States Court of Appeals for the Tenth Circuit
Certificate of Service
I, Aric Elsenheimer, certify that on September 20, 2021, a
copy of the petitioner’s Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari to the United States
Court of Appeals for the Tenth Circuit were mailed postage prepaid,
to the Solicitor General of the United States, Department of Justice,
Room 5614, 950 Pennsylvania Avenue, N.W., Washington, D.C.
20530-0001, counsel for the Respondent.

Respectfully submitted,
DATED: September 20, 2021

s/ Aric G. Elsenheimer
Aric G. Elsenheimer
Assistant Federal Defender
Counsel of Record
Office of the Federal Defender
District of New Mexico
111 Lomas Blvd., NW, Suite 501
Albuquerque, N.M. 87102
Telephone: (505) 346-2489
Facsimile: (505) 346-2494
E-mail: aric_elsenheimer@fd.org

